U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 25, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Stephen Linder v. United States of America,
S.Ct. No. 19-1082

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 2,
2020, and placed on the docket on March 4, 2020. The government's response is due on April 3,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 4, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1082
UNDER, STEPHEN
USA

CYNTHIA H. HYNDMAN
ROBINSON CURLEY & CLAYTON, P.C.
300 SOUTH WACKER DRIVE
SUITE 1700
CHICAGO, IL 60606
312-633-3100
CHYNDMAN@ROBINSONCURLEY.COM
3 12-633-0303(Fax)
JOHN PAUL SCHNAPPER-CASTERAS
1717 K STREET, N.W.
SUITE 900
WASHINGTON, DC 20006
202-630-3644

